  Report No. D-2011-073           June 14, 2011




Audit of the Afghanistan National Army Equipment
Maintenance Apprenticeship and Services Program
                     Contract
                                             INSPECTOR GENERAL                              JUN 142011
                                           DEPARTMENT OF DEFENSE 

                                             400 ARMY NAVY DRIVE 

                                        ARLINGTON , VIRGINIA 22202-4704 



MEMORANDUM FOR COMMANDER, U.S. CENTRAL COMMAND
               COMMANDER, NORTH ATLANTIC TREATY ORGANIZATION
                 TRAINING MISSION-AFGHANISTAN/COMBINED
                 SECURITY TRANSITION COMMAND-AFGHANISTAN
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
               COMMANDING GENERAL, JOINT THEATER SUPPORT
                  CONTRACTING COMMAND


SUBJECT: Audit of the Afghanistan National Army Equipment Maintenance Apprenticeship
          and Services Program Contract
         (RepOlt No . D-2011-073)

We announced the subject audit on March 4, 2010. The audit objective was to determine
whether adequate quality assurance and quality control procedures existed for the Afghanistan
National Army (ANA) Vehicle and Maintenance Contract, which is palt of the Equipment
Maintenance Apprenticeship and Services (EMAS) Program contract. Specifically, we
determined whether Government contractual requirements were met and adequate contractor
surveillance was conducted. To accomplish this objective, we reviewed Class IXl inventory
accountability and ANA maintenance training. We al so were to determine whether the
contractor submitted a fair and reasonable request for equitable adjustment for patts
reimbursement and required additional warehouse space to effectively perfonn contract tasks .
The Kabul Regional Contracting Center-Afghanistan (KRCC-A), Defense Contract
Management Agency (DCMA), and the North Atlantic Treaty Organization Training Mission­
Afghanistan/Combined Security Transition Command-Afghanistan (NTM-AiCSTC-A) took
action conceming each of the objectives before or during the audit. Specifically, KRCC-A
personnel denied the contractor's request for equitable adjustment for palts reimbursement and
DCMA persOlmel denied the contractor's proposal for additional warehouse space. Additionally,
in response to issues identified by the audit team, DCMA personnel:

    • 	 suspended most of the contractor' s procurement activities for Class IX items because we
        identified significant discrepancies in the contractor's Class IX inventory accountability
        records, and

     • 	 directed the contractor to conduct a 20 percent inventOlY of the Central Maintenance
         Facility (CMF) because we identified inaccurate inventOlY records.

NTM-AiCSTC-A officials stated they used the results of our audit to revise the performance
work statement of the Afghanistan-Teclmical Equipment Maintenance Program (A-TEMP)
contract, which was awarded on December 30, 2010, and replaced the EMAS Program contract.
The revisions included the removal of ANA supply chain management as a contractor-provided

• Class IX items are defined as equipment replacement pa.1(s) for vehicles, or any fielded equipment used to perform
repairs on the ANA assets.

                                                                                                                  1
function and instead turned that responsibility over to the ANA Logistical Command with
contractor advisor-mentor support. The A-TEMP contract also requires the contractor to design
a training program suited to the low literacy rates of ANA personnel and establish Mobile
Training Teams (MTTs) to deploy to training sites as needed, instead of establishing apprentice
programs at every site as required under the EMAS contract. To determine the effectiveness of
the A-TEMP contract terms, we plan to audit the contract in FY 2012. The audit will focus on
determining whether the contractor is meeting contractual requirements and DoD is conducting
adequate contractor surveillance.

Background
KRCC awarded the EMAS Program contract (W91B4M-08-C-0009) on December 19, 2007.
The contract included a base year, ending December 31, 2008, and two option years, ending
December 31, 2009, and December 31, 2010, respectively. KRCC exercised both option years
and extended the contract until March 31, 2011. The estimated cost of the base contract and two
option years was $246.7 million. Contract administration functions for the EMAS contract were
delegated to DCMA, which made DCMA responsible for ensuring contractor compliance with
contractual and quality assurance requirements and property administration.

Contractor’s Requests Denied
Before the audit, KRCC-A and DCMA denied the contractor’s request for equitable adjustment
for parts reimbursement and additional warehouse space. Regarding the parts reimbursement,
the contractor’s initial proposal included a clause allowing the contractor to receive an equitable
adjustment if parts reimbursement costs exceeded $15 million per year. KRCC denied the
request for reimbursement because the contractor’s initial proposal was not incorporated into the
final contract. Regarding the additional warehouse space, DCMA denied the request because the
expansion was outside the scope of the contract. Consequently, we did not pursue these issues
during our audit.

Inventory Accountability and Maintenance Training Issues
We identified improvements needed concerning Class IX inventory accountability and ANA
maintenance training. We conducted site visits to the CMF in Kabul; the Equipment
Maintenance sites in Pol-E-Charky, Kandahar, and Herat; the Combat Service Support sites in
Kandahar, Shorabak, and Herat; and the Forward Support Team sites in Shorabak and at the
Headquarters Security Service Brigade in Kabul. During those site visits, we examined the
Class IX inventory and reviewed the contractor’s maintenance apprenticeship training program
to determine whether it fulfilled contract requirements.

        Class IX Inventory. The contractor misstated the Class IX inventory at various sites
visited. At the CMF, we could not locate 2,406 of the 7,767 line items2 listed on the inventory
records. We also identified 1,830 line items3 that had inaccurate quantities listed on the
inventory records. The CMF inventory was valued at about $86.7 million and the absolute value


2
  We statistically project that we are 90 percent confident the number of line items that could not be located from the 

inventory records is between 1,565 and 3,247, with a point estimate of 2,406.

3
  We statistically project that we are 90 percent confident the number of line items with inaccurate quantities posted 

to the inventory records is between 1,063 and 2,616, with a point estimate of 1,830.


                                                                                                                      2
of the misstatement was $30 million.4 At the other sites, we non-statistically selected 150 Class
IX items from the contractor’s inventory records (in total) and compared stock on hand to those
records. Of the 150 Class IX items selected, 49 had quantities on hand that did not match the
quantities on the inventory records. These inventory misstatements occurred because DCMA did
not conduct periodic reviews of the contractor’s Class IX inventory under the EMAS Program
contract.

       Equipment Maintenance Training Program. We determined that the contractor did
not provide the ANA with adequate equipment maintenance training and that the ANA
commanders did not provide a sufficient number of personnel for training. Specifically, the
ANA equipment maintenance training program was:

      not well suited to ANA soldiers’ education levels because a high percentage of the ANA
       students were illiterate,
     designed with course material that was too complicated and course modules that were too
       long, and
    	 not well attended because of a lack of commitment from ANA Commanders, who
       removed students from the program before completion for other mission requirements.
       We were unable to observe training at four of the nine sites that we visited because ANA
       Commanders did not provide students for the classes.

Management Action Taken
Based on the CMF inventory testing results, DCMA issued memoranda to the contractor on
March 22, 2010, and April 4, 2010, requesting contractor action. Specifically, the:

     	 March 22, 2010, memorandum required the contractor to take immediate action to
        identify and correct information reported in its inventory database and to submit a
        corrective action plan within 14 calendar days of receipt of the letter.

     	 April 4, 2010, memorandum instructed the contractor to suspend all procurement
        activities (except for parts for vehicles awaiting repair, oil and lubricants, and filters not
        already in the inventory) and directed them to conduct a 20 percent inventory.

At the request of NTM-A/CSTC-A, we briefed the Deputy Commander for Programs in
April 2010 on our initial observations and concerns with the inventory and the training program.
CSTC-A officials stated that the A-TEMP Performance Work Statement was revised based, in
part, on those observations and concerns. The following table describes the differences between
the EMAS and A-TEMP contract requirements and the expected benefits of the A-TEMP
contract.




4
 We statistically project that we are 90 percent confident the absolute value misstated amount is between $17.5
million and $42.5 million, with a point estimate of $30 million.

                                                                                                                  3
           EMAS and A-TEMP Contract Differences and Expected Benefits

    EMAS Contract Requirement             A-TEMP Contract Requirement                    Expected Benefit
The contractor will manage,            The ANA Logistical Command will         Shifting the responsibility for
operate, and maintain a Class IX       procure, manage, receive, store,        supply chain management from a
warehouse; and manage, operate,        issue, and distribute all vehicle       contractor to the ANA Logistics
and maintain a parts procurement,      repair parts with the assistance of a   Command with only advisor-mentor
storage, issuance, and replenishment   contractor advisor-mentor team,         support should help ensure the ANA
of Class IX parts in Afghanistan.      whose focus will be to lead the         will be able to maintain an Army
                                       ANA warehouse workers to                Supply warehouse without U.S.
The contractor will provide            properly manage and operate an          support.
apprenticeship training within the     Army Supply warehouse.
areas of Class IX parts procurement,
storage (warehousing), and issuance
and replenishment operations.
Student testing requirements were      ANA personnel are required to take      Requiring an end-of-course test will
not specified in the contract.         a test at the end of each course.       help to ensure the effectiveness of
                                                                               the training program.
                                       A task performance test instead of a
                                       written test will be the primary
                                       means of certification because of
                                       low literacy rates of ANA
                                       personnel.
                                       In addition to National-level           Establishing MTTs and the ability
The contractor will provide interim
                                       training at the Central Workshop in     to modify the training sites should
equipment maintenance and
                                       Kabul, the contractor will establish    reduce the risk of paying to
apprenticeship program capabilities
                                       MTTs that deploy to ANA locations       establish training programs at sites
at each Equipment Maintenance
                                       for apprenticeship training to ANA      where training is not occurring.
site, Combat Services Support site,
                                       personnel in equipment
Forward Support Team site, and the
                                       management and equipment
CMF.
                                       maintenance.

                                       The training sites may be modified
                                       as the capability and requirements
                                       of the ANA change and more shops
                                       are transitioned to Afghan control.


We commend the Commander, DCMA, for taking immediate action to address the issues
identified during our fieldwork and the Commander, NTM-A/CSTC-A, for considering our
findings when developing the A-TEMP Performance Work Statement. We believe that the
actions taken address the issues we identified in the audit. In FY 2012, we plan to initiate an
audit of the A-TEMP contract to determine whether the revisions in the Performance Work
Statement have improved Class IX inventory accountability and the vehicle maintenance training
program. We will also determine whether other contractual requirements are being met by the
contractor and adequate contractor surveillance is being conducted by the Government.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” 

July 29, 2010, requires DoD organizations to implement a comprehensive system of internal 

controls that provides reasonable assurance that programs are operating as intended and to 

evaluate the effectiveness of the controls. We identified internal control weaknesses for DCMA. 


                                                                                                                      4
DCMA did not establish internal controls that required a review of the contractor’s Class IX
inventory under the EMAS Program contract. Although we identified internal control
weaknesses, we are making no recommendations because the EMAS Program contract has been
replaced by the A-TEMP contract and an audit of the A-TEMP contract is planned for FY 2012.
A copy of this memorandum will be provided to the senior official responsible for internal
controls in DCMA.

Audit Standards
We conducted this performance audit from March 2010 through May 2011 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

Scope and Audit Methodology
To accomplish our objectives, we reviewed contract terms in the EMAS Program contract
Statement of Work (W91B4M-08-C-0009). We interviewed personnel from NTM-A/CSTC-A,
KRCC-A, DCMA, and the contractor. We obtained and reviewed Federal Acquisition
Regulations; DoD regulations and instructions; contractor inventory management system
records; and contractor and Government quality assurance documentation. Additionally, we
conducted site visits to the CMF and eight other contractor-managed maintenance facilities. At
the CMF, we conducted an inventory of the Class IX line items using a statistical sampling
methodology. We conducted an inventory of the Class IX line items using a non-statistical
sampling methodology at the Equipment Maintenance sites in Kandahar and Herat; the Combat
Service Support sites in Kandahar, Shorabak, and Herat; and the Forward Support Team site at
the Headquarters Security Service Brigade in Kabul. We were unable to conduct inventory
testing at the Equipment Maintenance site in Pol-E-Charky because the inventory list provided
included inventory from three other sites. We were unable to conduct inventory testing at the
Forward Support Team site in Shorabak because we were not provided with an inventory list.
We also reviewed the original and revised training program developed by the contractor, training
statistics provided by the contractor, and observed training being conducted by the contractor.

Use of Computer-Processed Data
Our objective was to assess quality control procedures for the EMAS contract which included
evaluating inventory control processes. We used computer-processed data from the contractor’s
inventory management system to perform the audit. We obtained inventory reports produced by
that system to identify Class IX inventory levels. We tested the accuracy of the data in the
reports generated by the system by performing physical inventories. The results of our inventory
testing indicated that the inventory data was inaccurate and absolute value was misstated. See
the finding for a discussion of the data errors and actions taken by management to address data
reliability issues.

Use of Technical Assistance
The DoDIG Quantitative Methods and Analysis Division assisted us with the audit. Using the
CMF inventory list of 9,551 items, valued at $87.4 million, from the contractor’s inventory

                                                                                                     5
system, the Quantitative Methods and Analysis Division provided us with a statistical sample
stratified by dollars. For the purposes of this sample, we eliminated 1,327 parts that were listed
with a zero dollar value. At the request of DCMA, we also removed 457 parts ordered through
Foreign Military Sales as indicated in the records with a location code of "N/Stock." 5 The
resulting universe for our projection was based on 7,767 inventory line items with a stated value
of approximately $86.7 million. The statistical sample contained 200.items and was at the 90
percent confidence level.

Prior Audit Coverage
During the last 5 years, the .Govemment Accountability Office (GAO), the DoDIG, and the
Military Departments have issued reports discussing contract management, oversight, and quality
assurance. In addition, the Defense Contract Audit Agency issued one report on interim
vouchers for parts reimbursement on the EMAS Program contract (W91B4M~08~C~0009).
Unrestricted GAO reports can be accessed at http://www.gao.gov. Unrestricted DoDIG reports
can be accessed at http://www.dodig.mil/audit/reports. Defense Contract Audit Agency audit
reports are not available, except by restricted distribution.

You can obtain information about the Department of Defense Office oflnspector General from
DoD Directive 5106.01, "Inspector General of the Department of Defense," Aprill3; 2006,
change 1, September 25, 2006; DoD Instruction 7600.02, "Audit Policies," April27, 2007; and
DoD Instruction 7050.3, "Access to Records and Information by the Inspector General,
Department of Defense/' April24, 2000. Our Web site address is www.dodig.mil.

We appreciate the courtesies extended to the staff. If you have any questions, please contact
Ms. Carol Gorman at DSN 318~237-1532, or carol.gorman@dodig.mil.




                                                            Daniel R. Blair
                                                            Deputy Inspector General
                                                              for Auditing




5
    Inventory items with a location ofN/Stock were not procured by the contractor and not part of the contract.

                                                                                                                  6
cc:

UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND
LOGISTICS
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/ DOD CHIEF FINANCIAL
   OFFICER
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT AND
   COMPTROLLER)
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
DIRECTOR, JOINT STAFF
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY




                                                                 7
